HHS/OIG-Audit--"Review of Unfunded Pension Costs of Pennsylvania Blue Shield, (A-07-93-00713)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Unfunded Pension Costs of Pennsylvania Blue Shield,"
(A-07-93-00713)
May 12, 1994
Complete Text of Report is available in PDF format
(976 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the Pennsylvania Blue Shield had accumulated
$5.5 million in unallowable direct pension costs related to its Medicare segment.
These costs represent unfunded pension costs and imputed interest for Plan Years
1986 through 1991. These costs are unallowable because the pension costs were
not funded within the required specific time periods set by regulation. Imputed
interest on the unfunded costs is also unallowable. The PBS cannot claim any
of these unfunded costs in future cost accounting periods.